Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 SURETY BONDS REMAIN AN
 UNUSED TOOL TO PROTECT
  MEDICARE FROM HOME
  HEALTH OVERPAYMENTS




                    Daniel R. Levinson
                     Inspector General

                     September 2012
                     OEI-03-12-00070
EXECUTIVE SUMMARY: SURETY BONDS REMAIN AN UNUSED TOOL TO
PROTECT MEDICARE FROM HOME HEALTH OVERPAYMENTS
OEI-03-12-00070


WHY WE DID THIS STUDY

In January 1998, the Centers for Medicare & Medicaid Services (CMS) promulgated a
final rule requiring each home health agency (HHA) to obtain a surety bond in the
amount of $50,000 or 15 percent of the annual amount paid to the HHA by Medicare,
whichever is greater. However, this regulation remains unimplemented after nearly
15 years. The surety bond requirement is an important program integrity tool that
provides a sentinel effect of keeping fraudulent providers out of the program and a means
for Medicare to guarantee recoupment of some overpayments. Not implementing this
tool leaves Medicare at risk of losing millions of dollars in overpayments.

HOW WE DID THIS STUDY

We collected information from CMS on overpayments to HHAs identified from
2007 through 2011. For each year, CMS provided the total amount of debt (outstanding
overpayments plus any accrued interest) still owed by HHAs as of February 29, 2012.
We calculated the amount that CMS could have recovered if HHAs had each been
required to obtain a $50,000 surety bond.

WHAT WE FOUND

As of February 29, 2012, 2,004 HHAs still owed CMS a total of approximately
$408 million for $590 million in overpayments that the agency identified for these HHAs
between 2007 and 2011. CMS could have recovered at least $39 million between 2007
and 2011 if it had required each HHA to obtain a $50,000 surety bond. Of the
2,004 HHAs, 21 percent still had overpayment amounts, excluding interest, of more than
$50,000 each, and more than a quarter of these HHAs had outstanding overpayments of
greater than $500,000.

WHAT WE RECOMMEND

We recommend that CMS implement the HHA surety bond requirement. To recoup a
higher percentage of overpayments made to HHAs, CMS should consider increasing
surety bond amounts above $50,000 for those HHAs with high overall Medicare payment
amounts. CMS concurred with the recommendation.
                  TABLE OF CONTENTS

                  Objective ......................................................................................................1
                  Background ..................................................................................................1
                  Methodology ................................................................................................6
                  Findings........................................................................................................7
                             CMS could have recovered at least $39 million between 2007 and
                             2011 if it had required HHAs to obtain $50,000 surety bonds ........7
                             Twenty-one percent of HHAs had outstanding overpayment
                             amounts, excluding interest, of more than $50,000 .........................7
                  Conclusion and Recommendation ...............................................................9
                             Agency Comments and Office of Inspector General Response.....10
                  Appendix .................................................................................................... 11
                             A: Agency Comments ................................................................... 11
                  Acknowledgments......................................................................................13




Surety Bonds Remain an Unused Tool to Protect Medicare from Home Health Overpayments (OEI-03-12-00070)
                  OBJECTIVE
                      To determine how much in overpayments the Centers for Medicare &
                      Medicaid Services (CMS) could have recovered had the home health
                      agency (HHA) surety bond requirement been implemented.

                  BACKGROUND
                  To strengthen the integrity of Medicare’s home health benefit, the
                  Balanced Budget Act (BBA) of 1997 established a surety bond
                  requirement for HHAs. The surety bond requirement is an important
                  program integrity tool that provides a sentinel effect of keeping fraudulent
                  providers out of the program and a means for Medicare to guarantee
                  recoupment of some overpayments. However, the BBA requirement
                  remains unimplemented after nearly 15 years.
                  In the years since enactment of the BBA of 1997, the home health benefit
                  has remained highly vulnerable to fraud. In recent years, numerous
                  individuals were indicted on charges of fraudulently billing Medicare for
                  millions in home health services. In addition, the number of HHAs and
                  the amount of home health care expenditures have increased since 1997.
                  Not using the surety bond as a program integrity tool leaves Medicare at
                  risk for losing millions of dollars in overpayments to HHAs.
                  Medicare covers home health services for beneficiaries who need part-
                  time or intermittent care. Home health care services include skilled
                  nursing services, physical or occupational therapy, speech therapy, medical
                  social services, and home health aide services. 1
                  To qualify for home health services, Medicare beneficiaries must be:
                      •    homebound (i.e., confined to the home);
                      •    in need of home health care services on a part-time or intermittent
                           basis; 2
                      •    under a physician’s care; and


                  1
                    The authority for coverage of home health services by Parts A and B is found throughout the
                  Social Security Act. Sections 1812(a) and 1832(a) establish home health services as a benefit
                  under, respectively, Part A and Part B. Section 1861(o) defines “home health agency” and
                  establishes certain administrative requirements for participation in Medicare, including the
                  submission of a surety bond. Sections 1814(a)(2) and 1835(a)(2) establish certain limits on
                  payment for services, including the requirement that the beneficiary be homebound. Finally,
                  section 1891 establishes the conditions of Medicare participation for home health agencies.
                  2
                    Intermittent means skilled nursing care that is provided or needed fewer than 7 days each
                  week, or less than 8 hours each day for periods of 21 days or less. Social Security Act,
                  § 1861(m).

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)       1
                      •    under a plan of care established and reviewed periodically by a
                           physician. 3
                  As of 2011, a physician must also certify through a face-to-face encounter
                  that a beneficiary needs home health services. This encounter must occur
                  no more than 90 days before or 30 days after services begin. 4
                  Home health services are covered under Part A and Part B of Medicare.
                  Most Medicare services require beneficiary copayments; home health
                  services do not. 5
                  Growth and Vulnerabilities Related to Home Health Care
                  Medicare expenditures for home health services grew considerably from
                  1990 to 1997, increasing from $4 billion to $18 billion. During the same
                  period, the number of HHAs nearly doubled. This growth led to concerns
                  from Congress regarding fraud and abuse, increased spending, and
                  inadequate oversight. In particular, concern arose that unscrupulous
                  HHAs were being allowed to participate in Medicare. Some HHAs
                  accumulated large overpayments that could not be recovered because the
                  HHAs had closed or declared bankruptcy. 6
                  In recent years, Medicare expenditures and the number of HHAs have
                  grown to levels exceeding the highs they reached in 1997. In 2009,
                  Medicare paid $19.3 billion for home health care, and in 2010, the number
                  of HHAs reached 11,488. 7, 8
                  CMS continues to cite home health care as an area “highly vulnerable to
                  waste, fraud, and abuse.” 9 To address this vulnerability, CMS has
                  established new enrollment requirements for moderate- and high-risk
                  providers and has also established payment caps. 10 However, the recent


                  3
                    Social Security Act, §§ 1814(a)(2)(C) and 1835(a)(2)(A).
                  4
                    Medicare Benefit Policy Manual (MBPM), Pub. 100-02, ch. 7 § 30.5.1.1.
                  5
                    Social Security Act § 1813 and 1833 and MBPM, Pub. 100-02, ch.7, § 60.3.
                  6
                    General Accounting Office (now the Government Accountability Office) (GAO), Medicare
                  Home Health Agencies: Overpayments Are Hard To Identify and Even Harder to Collect,
                  GAO/HEHS/AIMD-00-132, April 2000.
                  7
                    Medicare Payment Advisory Committee (MedPAC), Home Health Care Services Payment
                  System, October 2011. Accessed at
                  http://www.medpac.gov/documents/MedPAC_Payment_Basics_11_HHA.pdf on
                  June 22, 2012.
                  8
                    MedPAC, Report to the Congress: Medicare Payment Policy, ch. 8, March 2011. Accessed
                  at http://www.medpac.gov/chapters/Mar11_Ch08.pdf on June 22, 2012 .
                  9
                    Reducing Fraud, Waste, and Abuse in Medicare: Hearing Before the U.S. House of
                  Representatives Committee on Ways and Means, Subcommittee on Health, Subcommittee on
                  Oversight, 112 Cong. (2011) (Statement of Kimberly Brandt, Director, Program Integrity
                  Group, Office of Financial Management, CMS, U.S. Department of Health and Human
                  Services).
                  10
                     42 CFR § 424.518.

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   2
                  indictments of numerous individuals for fraudulently billing Medicare for
                  home health services illustrate the need for additional oversight of the
                  HHA benefit. For instance, a Texas physician was indicted in
                  February 2012 for allegedly certifying beneficiaries’ plans of care so that
                  HHAs were able to bill Medicare for home health services that were not
                  medically necessary and not provided. This physician also allegedly
                  performed unnecessary home visits and ordered unnecessary medical
                  services. This is the largest home health fraud indictment in U.S. history,
                  involving more than $350 million in allegedly fraudulent Medicare
                  payments. 11
                  Collection of Overpayments
                  Medicare Administrative Contractors (MAC) are responsible for
                  processing claims for home health services. Overpayments may be
                  identified by MACs or other Medicare contractors, such as Zone Program
                  Integrity Contractors. The recovery of overpayments is part of the MACs’
                  claims processing responsibilities. Overpayments may be recovered
                  through methods such as the establishment of a repayment plan, reduction
                  of Medicare payments by the amount owed, or suspension of payments.
                  Surety bonds are a method for recovering outstanding overpayments when
                  established methods are unsuccessful. A surety bond is issued by a
                  company, known as a surety, guaranteeing that the bond purchaser will
                  fulfill its financial obligation to Medicare. The surety bond guarantees
                  that the surety will pay CMS the amount of any overpayments, civil
                  monetary penalties, or assessments, plus accrued interest, for which the
                  purchaser (e.g., an HHA) is responsible, up to the surety’s maximum
                  obligation. 12 Surety bonds have been a condition of enrollment for certain
                  suppliers of durable medical equipment, prosthetics, orthotics, and
                  supplies (DMEPOS) since 2009. 13
                  Use of Surety Bonds to Limit Medicare Vulnerability
                  To address concerns created by growth in home health care, the BBA of
                  1997 amended the Social Security Act to require HHAs to obtain surety
                  bonds. 14 To implement the BBA requirement, CMS promulgated a final
                  rule on January 5, 1998, requiring each HHA to obtain a surety bond that


                  11
                     Department of Justice, Justice News: Dallas Doctor Arrested for Alleged Role in Nearly
                  $375 Million Health Care Fraud Scheme, February 28, 2012. Accessed at
                  http://www.justice.gov/opa/pr/2012/February/12-crm-260.html on June 22, 2012.
                  12
                     42 CFR § 489.66(a).
                  13
                     42 CFR § 424.57(d)(1).
                  14
                     BBA of 1997, § 4312(b), amending the Social Security Act, § 1861(o).




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)        3
                  is the greater of $50,000 or 15 percent of the annual amount paid to the
                  HHA by Medicare. 15
                  Certain members of Congress objected to some provisions of CMS’s
                  surety bond rule, such as the requirement that some HHAs obtain bonds
                  equal to 15 percent of the amount paid to the HHA by Medicare.
                  Members of Congress also objected to requirements that all HHAs—not
                  just new ones—obtain bonds and that HHAs must obtain bonds every
                  year. A joint resolution expressing disapproval of CMS’s rule was
                  ultimately introduced in the Senate and House. Although the resolution
                  was never voted upon, in July 1998, CMS indefinitely postponed the
                  implementation dates for HHAs to comply with the surety bond
                  requirement. 16
                  GAO issued a report in January 1999 concluding that a surety bond
                  requirement would increase scrutiny of HHAs entering Medicare and
                  provide them with incentives to avoid overpayments. GAO recommended
                  that CMS revise the original regulation so that each HHA, regardless of its
                  total payments from Medicare, would be required to obtain a $50,000
                  surety bond. Although CMS agreed with this recommendation, the HHA
                  surety bond requirement has remained unimplemented.
                  The Patient Protection and Affordable Care Act (ACA) of 2010 adds
                  language to the Social Security Act stating that the amount of the surety
                  bond can be set based on the HHA’s billing volume. 17 In 2011, CMS staff
                  testified before Congress that the agency would issue additional surety
                  bond requirements established under the ACA for home health agencies. 18
                  However, CMS has not yet done so.
                  CMS is drafting a proposed rule that, among other topics, addresses the
                  issue of surety bonds for HHAs. As of July 2012, the agency does not
                  have an estimate as to when this proposed rule will be completed.
                  Related Office of Inspector General Work
                  The Office of Inspector General (OIG) has issued reports identifying
                  vulnerabilities in the home health care benefit and weaknesses in CMS’s
                  use of surety bonds to recover overpayments from DMEPOS suppliers.



                  15
                     42 CFR § 489.65, 63 Fed. Reg. 292 (Jan. 5, 1998).
                  16
                     63 Fed. Reg. 41170 (July 31, 1998).
                  17
                     ACA § 6402(g), amending the Social Security Act, § 1861(o).
                  18
                     New Tools for Curbing Waste and Fraud in Medicare and Medicaid: Hearing Before the
                  U.S. Senate Committee on Homeland Security and Governmental Affairs, 112 Cong. (2011)
                  (Statement of Peter Budetti, Deputy Administrator and Director, Center for Program Integrity,
                  CMS, U.S. Department of Health and Human Services).

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)       4
                  A 2006 report found that improperly coded claims for home health
                  services led to $48 million in overpayments. CMS had not established the
                  controls needed to code claims correctly. OIG recommended that CMS
                  establish needed controls and recover these overpayments. 19
                  In a 2009 report, OIG found aberrant outlier payments to HHAs in
                  Miami-Dade County, Florida, and 23 other counties nationwide, indicating
                  that home health is an area vulnerable to fraud. The report recommended
                  strengthening enrollment standards for HHAs to prevent illegitimate
                  agencies from obtaining Medicare billing privileges. 20
                  In a September 2011 memorandum report, OIG found that CMS did not
                  have finalized procedures for recovering DMEPOS overpayments through
                  surety bonds. In addition, as of July 2011, no overpayments had been
                  recovered through surety bonds since the surety bond requirement became
                  effective for all DMEPOS suppliers in October 2009. 21
                  In 2012, OIG reviewed home health medical records for a sample of
                  495 beneficiaries to determine whether Medicare coverage requirements were
                  met. OIG found that HHAs submitted 22 percent of claims in error in
                  2008 because services were unnecessary or claims were coded
                  inaccurately, resulting in $432 million in improper payments. 22
                  OIG has also collaborated with the Department of Justice on a number of
                  investigations of fraudulent home health providers. In one case, a
                  provider pleaded guilty to falsifying patient records and billing Medicare
                  for unneeded services. The provider paid cash kickbacks to a doctor for
                  referring patients to the provider for services. 23 In another case, a provider
                  fraudulently billed $20 million to Medicare by falsifying patient records
                  and paying kickbacks to patient recruiters. 24




                  19
                     OIG, Review of Home Health Agencies’ Billing for Services Preceded by a Hospital
                  Discharge, A-01-04-00527, March 2006.
                  20
                     OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade County
                  and Other Geographic Areas in 2008, OEI-04-08-00570, December 2009.
                  21
                     OIG, Use of Surety Bonds to Recover Overpayments Made to Suppliers of Durable Medical
                  Equipment, Prosthetics, Orthotics, and Supplies: Early Findings, OEI-03-11-00351,
                  September 2011.
                  22
                     OIG, Documentation of Coverage Requirements for Medicare Home Health Claims,
                  OEI-01-08-00390, March 2012.
                  23
                     Department of Justice, Home Health Care Administrator Pleads Guilty to Federal
                  Healthcare Fraud and Scheme, April 20, 2012. Accessed at
                  http://www.justice.gov/usao/iln/pr/rockford/2012/pr0420_01.pdf on April 23, 2012.
                  24
                     Department of Justice, Two Owners and Two Employees of Miami Home Health Company
                  Plead Guilty in $20 Million Health Care Fraud Scheme, April 2, 2012. Accessed at
                  http://www.justice.gov/opa/pr/2012/April/12-crm-420.html on April 23, 2012.

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   5
                  METHODOLOGY
                  Data Collection and Analysis
                  We collected information from CMS on HHA overpayments identified
                  from 2007 through 2011 that were still outstanding as of February 29,
                  2012. For each calendar year and for each HHA, CMS provided the total
                  amount of overpayments identified, the total amount of any current
                  outstanding overpayments, and the total amount of debt (i.e., outstanding
                  overpayments plus accrued interest) as of February 29, 2012.
                  We calculated the amount that CMS could have recovered—based on the
                  amount of each HHA’s debt—if each HHA had been required to obtain a
                  $50,000 surety bond. For those HHAs that owed less than $50,000 in a
                  given year, we used the debt amount (outstanding overpayments plus
                  accrued interest) as the amount CMS could have recovered from the HHA.
                  For those HHAs that owed $50,000 or more, we used $50,000—the base
                  amount for a surety bond—as the amount that CMS could have recovered.
                  Had we instead used a recovery amount equal to 15 percent of an HHA’s
                  annual payments from Medicare, the total estimate of potential recoveries
                  would have been greater. For that reason, our estimate of potential
                  recoveries is a conservative one.
                  We also determined the number of HHAs with outstanding overpayments
                  (not including accrued interest) greater than $50,000 and calculated the
                  amount of outstanding overpayments.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   6
                     FINDINGS
                     CMS could have recovered at least $39 million
                     between 2007 and 2011 if it had required HHAs to
                     obtain $50,000 surety bonds
                     As of February 29, 2012, 2,004 HHAs still owed CMS a total of
                     approximately $408 million for $590 million in overpayments that the
                     agency identified for these HHAs between 2007 and 2011. Of these
                     HHAs, 198 had overpayments identified in multiple years. Table 1
                     provides the amount of overpayments CMS identified for each year from
                     2007 through 2011 as well as potential recoveries. If CMS had required
                     each HHA to obtain a $50,000 surety bond, the agency could have
                     potentially recovered a minimum of $39 million.

Table 1: Potential Recoveries if HHAs With Overpayment Debt Had a $50,000 Surety Bond
                                                                                                            Potential
                                                                                                         Recoveries
                                                              Total           Total      Total Debt1    if Each HHA
                 Number                 Total
 Year                                                  Outstanding        Accrued     (Amount Owed             Had a
                 of HHAs        Overpayments
                                                      Overpayments         Interest         to CMS)          $50,000
                                                                                                              Surety
                                                                                                               Bond
 2007               1,087        $102,584,189           $34,604,552   $15,345,161         $49,949,713    $17,526,563

 2008                 118         $48,338,042           $28,533,239    $8,594,117         $37,127,357     $2,435,444

 2009                 161         $91,177,813           $55,989,749   $10,036,756         $66,026,505     $4,220,852

 2010                 217        $149,449,406          $116,028,090   $12,299,595        $128,327,685     $5,760,193

 2011                 421        $198,351,973          $119,190,213    $7,001,053        $126,191,266     $9,160,602

     Total          2,004        $589,901,423          $354,345,843   $53,276,682        $407,622,526    $39,103,654

Source: OIG analysis of CMS overpayment data, 2012.
1
  As of February 29, 2012.




                     Twenty-one percent of HHAs had outstanding
                     overpayment amounts, excluding interest, of more
                     than $50,000
                     Four hundred fourteen HHAs each had outstanding overpayment amounts
                     (excluding accrued interest) of more than $50,000 in at least 1 year.
                     Thirty-four HHAs each had outstanding overpayments of more than
                     $50,000 for multiple years. As shown in Table 2, the 414 HHAs had
                     outstanding overpayments totaling $341 million. 25 If each of these
                     414 HHAs had a surety bond of $50,000, CMS would have recovered

                     25
                          With the addition of accrued interest, these HHAs owed a total of $388 million to CMS.

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)             7
                  $21 million, which is only 6 percent of the $341 million outstanding
                  overpayment amount.
                  Table 2: Outstanding Overpayments for HHAs
                                    Number of HHAs                         Number of HHAs
                                     With $50,000 or              Total     With More Than            Total
                   Year                      Less in       Outstanding           $50,000 in    Outstanding
                                        Outstanding       Overpayments         Outstanding    Overpayments
                                      Overpayments                           Overpayments
                   2007                           975         $8,071,071                112      $26,533,481

                   2008                             89          $743,732                 29      $27,789,508

                   2009                           100           $932,882                 61      $55,056,867

                   2010                           131         $1,223,020                 86     $114,805,071

                   2011                           295         $2,746,598                126     $116,443,615

                        Total                   1,590        $13,717,303                414     $340,628,542

                 Source: OIG analysis of CMS overpayment data, 2012.


                  Many of these HHAs (281 of 414) had outstanding overpayment amounts
                  of more than twice the standard surety bond amount of $50,000. Within
                  this group, 130 HHAs had outstanding overpayments of over $500,000.
                  For the 414 HHAs, the lowest amount owed in a single year was $52,881
                  and the highest amount owed was $16,360,555. The average debt was
                  $937,337 and the median debt was $217,822.
                  CMS’s final rule on the surety bond requirement stated that HHAs were to
                  obtain a surety bond that is the greater of $50,000 or 15 percent of the
                  annual amount paid to the HHA by Medicare. For an HHA to be required
                  to obtain a surety bond greater than $50,000, its annual Medicare
                  payments would need to be greater than $333,333. Between 2007 and
                  2011, 144 HHAs had outstanding overpayments alone totaling more than
                  $333,333. 26 The total amount of outstanding overpayments for these
                  HHAs is $306 million. As of February 29, 2012, these HHAs owed a total
                  of $344 million (outstanding overpayments plus accrued interest).




                  26
                       An overpayment may not have necessarily occurred in the same year it was identified.

Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)         8
                  CONCLUSION AND RECOMMENDATION
                  The BBA of 1997 mandated the use of surety bonds for HHAs to
                  strengthen program integrity over home health services. In 1999, GAO
                  concluded that a surety bond requirement would increase scrutiny of
                  HHAs entering Medicare and provide them with incentives to return
                  overpayments. However, the HHA surety bond requirement remains
                  unimplemented and home health expenditures and the number of HHAs in
                  Medicare have increased.
                  Medicare continues to lose millions of dollars in outstanding HHA
                  overpayments. From 2007 through 2011, CMS identified $590 million in
                  HHA overpayments that were still outstanding as of February 29, 2012.
                  The total debt still owed to Medicare was approximately $408 million. In
                  addition, 21 percent of HHAs had outstanding overpayment amounts
                  (excluding accrued interest) of more than $50,000 in at least 1 year.
                  In the past, OIG has conducted work on CMS’s tracking and collection of
                  overpayments, identifying vulnerabilities that highlight the need for CMS
                  to be more effective in its recoupment efforts. The surety bond
                  requirement is not the only tool that CMS can use to protect the program
                  from vulnerabilities in the home health benefit. However, requiring the
                  use of surety bonds would discourage fraudulent HHAs’ entry into the
                  program and guarantee CMS’s ability to recoup some portion of
                  overpayments.
                  We recommend that CMS:
                  Implement the HHA Surety Bond Requirement
                  CMS suspended its implementation of the surety bond requirement in
                  1998. CMS should promulgate a new implementation date for the existing
                  regulations or promulgate new regulations that implement the statutory
                  requirement for HHAs to obtain surety bonds. The regulation published in
                  1998 required HHAs to obtain a surety bond that is the greater of $50,000
                  or 15 percent of the annual amount paid to the HHA by Medicare. We
                  found that many of the HHAs with outstanding overpayments each owed
                  more than twice the $50,000 surety bond amount.
                  The ACA further amended the surety bond requirement by allowing CMS
                  to establish the surety bond amount based on the HHA’s billing volume.
                  To provide CMS with the ability to recoup a higher percentage of
                  overpayments made to HHAs, CMS should consider increasing surety
                  bond amounts above $50,000 for those HHAs with high overall Medicare
                  payment amounts.




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   9
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred that implementing a surety bond requirement for HHAs
                  may help reduce potential payment vulnerabilities. It stated that it is
                  evaluating its options in implementing this requirement.
                  The full text of CMS's comments is provided in Appendix A.




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   10
                      APPENDIX A
                      Agency Comments



       _;<P'OQ,....

      { ,...i_ 	      DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services

       ~<::~~                                                                                 Administrator
                                                                                              Washington, DC 20201




                 DATE:        AUG 2 2 2012
                 TO: 	          Daniel R. Levinson 

                                Inspector General 


                 FROM:         'MarilYn Tav-ellner 

                                                    /S/
                                Acting Adm'ini!;trator 


                 SUBJECI': 	 Office of Inspector General (OIG) Draft Report: "Surety Bonds Remain an
                             Unused Tool to Protect Medicare from Home Health Overpayments"
                             (OEI-03-12-00070)


                 The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                 comment on the OIG draft report entitled, "Surety Bonds Remain an Unused Tool to Protect
                 Medicare from Home Health Overpayments."

                 To strengthen the integrity of Medicare's home health benefit, the Balanced Budget Act of 1997
                 established a surety bond requirement for home health agencies (HHA) enrolling in Medicare.
                 Requiring surety bonds is an important program integrity tool that not only helps to keep
                 fraudulent providers out of the program, but also provides a means for Medicare to guarantee
                 recoupment of some overpayments.

                 The Affordable Care Act further strengthens CMS's ability to address fraud in higher risk
                 entities such as HHAs and provides CMS with important new tools to combat fraud and abuse,
                 including enhanced provider and supplier screening requirements, authority to suspend payments
                 pending investigations of credible allegations of fraud and, when necessary, the authority to
                 impose moratoria on new providers and suppliers. One such tool CMS "implemented was a face­
                 to-face encounter requirement as a condition of payment for Medicare home health services. In
                 addition, the Affordable Care Act expands CMS's authority to require surety bonds.

                  The Affordable Care Act amended the existing home health surety bond requirement at section
                  1861(o)(7)(C) of the Social Security Act to require a bond amount that is commensurate with the
                  volume of the HHA's billing. Given the agency's prior experience with a surety bond
                  requirement, which as described in the report was met with significant resistance, CMS is
                  carefully evaluating the best way to implement a HHA surety bond. Whereas CMS is clearly
                  committed to identifying and preventing fraud and improper payments, CMS is also mindful of
                  the impact that our initiatives have on legitimate providers and suppliers, particularly smaller
                  entities.




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)                                   11
Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   12
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                  Tanaz Dutia served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Philadelphia regional office who
                  conducted the study include Nancy Molyneaux and Russell Tisinger.
                  Central office staff who provided support include Scott Manley and
                  Christine Moritz.




Surety Bonds Remain an Unused Tool To Protect Medicare from Home Health Overpayments (OEI-03-12-00070)   13
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
